                                                                         OFFICE OF WORKERS’

U.S. Department of Labor                                                 COMPENSATION PROGRAMS


                           Office of Inspector General—Office of Audit




                                                                         SPECIAL REPORT RELATING TO THE
                                                                         FEDERAL EMPLOYEES’ COMPENSATION ACT
                                                                         SPECIAL BENEFIT FUND
                                                                         September 30, 2012




                                                                          This report was prepared by KPMG LLP, under contract to the U.S.
                                                                          Department of Labor, Office of Inspector General, and by acceptance, it
                                                                          becomes a report of the Office of Inspector General.



                                                                                                           __________________________
                                                                                                           Assistant Inspector General for Audit
                                                                                                           U.S. Department of Labor




                                                                                                    Date Issued: October 26, 2012
                                                                                                 Report Number: 22-13-001-04-431
                                                                               Special Report Relating to the
                                                     Federal Employees’ Compensation Act Special Benefit Fund

Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… ..........................3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense........................5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ........................................................................11

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense .......................................................13

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures ...........................................................................................................17

      B.   Schedules

             Schedule of Actuarial Liability by Agency ........................................................19

             Schedule of Net Intra-Governmental Accounts Receivable by Agency .......... 21

             Schedule of Benefit Expense by Agency ..........................................................23

      C.   Agreed-Upon Procedures and Results

             Actuarial Liability ................................................................................................25

             Net Intra-Governmental Accounts Receivable..................................................35

             Benefit Expense ..................................................................................................41

Appendix
             Acronyms and Abbreviations ............................................................................48




Prepared by KPMG LLP, for the                                                                                                     1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor                               Office of Inspector General
                                                       Washington, DC 20210




October 26, 2012

                 Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR:               FEDERAL AGENCIES WITH RESPONSIBILITIES
                              FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                              ACT PROGRAM




FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General
                               for Audit

SUBJECT:                      Special Report Relating to the Federal Employees’
                              Compensation Act Special Benefit Fund – FY 2012
                              Report No. 22-13-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (Fund) that was prepared to assist in the audit of your agency’s
annual financial statements. The U.S. Department of Labor (DOL), Office of Workers’
Compensation Programs (OWCP), administers the Fund and the DOL Office of
Inspector General (OIG) is responsible for auditing the Fund.

The OIG contracted with the independent certified public accounting firm of KPMG LLP
(KPMG) to prepare the report on the Fund as of, and for the year ended,
September 30, 2012. This special report consists of two reports. The first report is an
opinion on the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable, and Benefit Expense of the Fund as of, and for the year ended,
September 30, 2012, for which KPMG issued an unqualified opinion. In connection with
this audit, KPMG performed certain tests of controls and compliance with laws and
regulations related to the Fund. Its testing of controls disclosed an instance of deficiency
in internal control over financial reporting titled “Insufficient Review of the Accrued
Benefit Expense” that KPMG considered to be a significant deficiency. This significant
deficiency was not considered to be a material weakness. KPMG’s testing of
compliance disclosed no instances of noncompliance or other matters that are required
to be reported under generally accepted government auditing standards (GAGAS).

Prepared by KPMG LLP, for the                                                                   3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The second report is an agreed-upon procedures (AUP) report on the Schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of, and for the year ended, September 30, 2012. This report
includes a description of the procedures performed and the results of those procedures.

The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the OIG nor KPMG made any
representations regarding the sufficiency of the procedures. Because the AUPs
performed did not constitute an audit, KPMG did not express an opinion on any
elements, accounts, or items as they pertained to the AUP report. Furthermore, neither
the OIG nor KPMG had any obligation to perform any procedures beyond those listed in
the attached report.

KPMG is responsible for the attached reports dated October 26, 2012, and the
conclusions expressed therein. We reviewed KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from an
audit in accordance with GAGAS, was not intended to enable us to express, and we did
not express opinions on the actuarial liability, net intra-governmental accounts
receivable, and benefit expense of the Fund in total as of, and for the year ended,
September 30, 2012; or the AUP report on the schedules of actuarial liability, net intra-
governmental accounts receivable and benefit expense of the Fund by agency as of,
and for the year ended, September 30, 2012. Our review disclosed no instances where
KPMG did not comply, in all material respects, with GAGAS.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:

               Joseph L. Donovan, Jr.
               Audit Director, Financial Statement Audits
               U.S. Department of Labor
               Office of Inspector General
               200 Constitution Ave., N.W., Room S-5512
               Washington, D.C. 20210

               Fax: (202) 693-5169
               E-mail: donovan.joseph@oig.dol.gov

Attachment




4                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                                Special Report Relating to the
                                                      Federal Employees’ Compensation Act Special Benefit Fund




                       KPMG LLP
                       Suite 12000
                       1801 K Street, NW
                       Washington, DC 20006




                                                     SECTION 1A
                        Independent Auditors’ Report on the
                Schedule of Actuarial Liability, Net Intra-Governmental
                     Accounts Receivable, and Benefit Expense

Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor
U.S. Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:

We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2012, and Benefit Expense for
the year ended September 30, 2012, of the U.S. Department of Labor’s (DOL) Federal
Employees’ Compensation Act Special Benefit Fund (the Schedule). The objective of
our audit was to express an opinion on the fair presentation of the Schedule. In
connection with our audit, we also considered DOL’s internal control over financial
reporting related to the Schedule and tested DOL’s compliance with certain provisions
of applicable laws and regulations that could have a direct and material effect on the
Schedule.
SUMMARY
As stated in our opinion on the Schedule, we concluded that DOL’s Schedule as of and
for the year ended September 30, 2012, is presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.
Our consideration of internal control over financial reporting resulted in the identification
of a deficiency that we consider to be a significant deficiency, as defined in the Internal
Control Over Financial Reporting section of this report, related to controls over the year-
end benefit expense accrual. We did not identify any deficiencies in internal control
over financial reporting that we consider to be material weaknesses as defined in the
Internal Control Over Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.



Prepared by KPMG LLP, for the                                                                               5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




The following sections discuss our opinion on DOL’s Schedule; our consideration of
DOL’s internal control over financial reporting; our tests of DOL’s compliance with
certain provisions of applicable laws and regulations; and management’s and our
responsibilities.
OPINION ON THE SCHEDULE
We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2012, and Benefit Expense for
the year ended September 30, 2012, of the U.S. Department of Labor’s Federal
Employees’ Compensation Act Special Benefit Fund.
In our opinion, the Schedule referred to above presents fairly, in all material respects,
the actuarial liability and net intra-governmental accounts receivable as of September
30, 2012, and benefit expense for the year ended September 30, 2012, in conformity
with U.S. generally accepted accounting principles.
INTERNAL CONTROL OVER FINANCIAL REPORTING
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of DOL’s Schedule will not
be prevented, or detected and corrected on a timely basis.
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify
all deficiencies in internal control over financial reporting that might be deficiencies,
significant deficiencies or material weaknesses. In our audit, we did not identify any
deficiencies in internal control over financial reporting that we consider to be material
weaknesses, as defined above. However, we identified a deficiency in internal control
over financial reporting described in Exhibit I that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with
governance.
COMPLIANCE AND OTHER MATTERS
The results of our tests of compliance as described in the Responsibilities section of this
report disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.



6                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




RESPONSIBILITIES
Management’s Responsibilities. Management is responsible for the Schedule,
establishing and maintaining effective internal control, and complying with laws and
regulations applicable to the Schedule.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the Schedule
based on our audit. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the Schedule is free of material
misstatement. An audit includes consideration of internal control over financial reporting
as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of DOL’s internal
control over financial reporting. Accordingly, we express no such opinion.
An audit also includes:
•    Examining, on a test basis, evidence supporting the amounts and disclosures in
     the Schedule;
•    Assessing the accounting principles used and significant estimates made by
     management; and
•    Evaluating the overall Schedule presentation.
We believe that our audit provides a reasonable basis for our opinion.
In planning and performing our audit, we considered DOL’s internal control over
financial reporting by obtaining an understanding of DOL’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Schedule, but not for the purpose of
expressing an opinion on the effectiveness of DOL’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of DOL’s
internal control over financial reporting.
As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of DOL’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of Schedule amounts. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with
all laws and regulations applicable to DOL. However, providing an opinion on
compliance with laws and regulations was not an objective of our audit and, accordingly,
we do not express such an opinion.
Prepared by KPMG LLP, for the                                                                   7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
the U.S. Congress, and those Federal agencies with responsibility for the FECA
program and is not intended to be and should not be used by anyone other than these
specified parties.



October 26, 2012




8                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                                                        Exhibit I

Insufficient Review of the Accrued Benefit Expense

During our audit, we determined there was insufficient review of the accrued benefit
expense year-end journal entry. Specifically, the accrued benefit expense computation
did not accurately capture the number of days used to estimate benefit expenses
incurred in fiscal year (FY) 2012, but not paid as of September 30, 2012. This resulted
in an overstatement of accrued benefit expenses, benefit expenses and intra-
governmental accounts receivable balances of approximately $51.1 million as of
September 30, 2012. This error, which management determined to be immaterial, was
not corrected in the accompanying Schedule.

As part of its review of the year-end accrued benefit expense, the Office of Workers’
Compensation Program’s (OWCP) review was not sufficient to ensure the accuracy of
the number of days used to calculate the accrued benefit expense.

Without effective controls surrounding the review of the calculation of the accrued
benefit expense, there is an increased risk that the accrued benefit expense, benefit
expense, and intra-governmental accounts receivable balances may be materially
misstated in the Schedule at fiscal year end.

U.S. Government Accountability Office, Standards for Internal Control in the Federal
Government, state,

       Internal control should generally be designed to assure that ongoing monitoring
       occurs in the course of normal operations. It is performed continually and is
       ingrained in the agency’s operations. It includes regular management and
       supervisory activities, comparisons, reconciliations, and other actions people
       take in performing their duties.

To address the issued noted above, we recommend that OWCP management
emphasize the importance of performing and documenting a detailed review of the
accrued benefit expense calculation, including but not limited to, verifying the use of
correct number of days to accrue for, and verifying the accuracy of the calculation. This
detailed review by OWCP should be explicitly documented.

Management’s Response

OWCP will reiterate the requirement for performing and documenting a detailed review
of the accrued benefit expense calculation, including but not limited to, verifying the use
of the correct number of days for the accrual and the accuracy of the calculation. The
details of the review will be documented. Completion is targeted for January 31, 2013.


Prepared by KPMG LLP, for the                                                                   9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

Auditors’ Response

We will conduct follow-up procedures in FY 2013 to determine whether corrective
actions have been developed and implemented.




10                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund



                                          SECTION 1B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
            Schedule of Actuarial Liability and Net Intra-Governmental
        Accounts Receivable as of September 30, 2012, and Benefit Expense
                     For the Year Ended September 30, 2012

                                    (dollars in thousands)

       Actuarial Liability                                                    $ 34,260,124


       Net Intra-Governmental Accounts Receivable                              $ 5,439,409


       Benefit Expense                                                         $ 5,941,880




                             See accompanying notes to the Schedule.
Prepared by KPMG LLP, for the                                                                  11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2012, and Benefit Expense
                     For the Year Ended September 30, 2012

1.     Significant Accounting Policies

       a.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2012, and Benefit Expense for the year ended
       September 30, 2012, of the U.S. Department of Labor’s Federal Employees’
       Compensation Act Special Benefit Fund (the Schedule) has been prepared to
       report the actuarial liability, net intra-governmental accounts receivable, and
       benefit expense of the U.S. Department of Labor’s (DOL) Federal Employees'
       Compensation Act (FECA) Special Benefit Fund (the Special Benefit Fund). The
       Special Benefit Fund was established by the Federal Employees' Compensation
       Act (Act) to provide for the financial needs resulting from compensation and
       medical benefits authorized under the Act. The DOL, Office of Workers’
       Compensation Programs (OWCP) is charged with the responsibility of operating
       the Special Benefit Fund under the provisions of the Act. The Schedule has
       been prepared from the accounting records of the Special Benefit Fund. The
       actuarial liability, net intra-governmental accounts receivable, and benefit
       expense of the Special Benefit Fund are considered specified accounts for the
       purpose of this Schedule. OWCP is responsible for providing this information to
       the Chief Financial Officers (CFO) Act agencies and other specified agencies to
       support and prepare their respective financial statements.

       The actuarial liability of $34,260,124 thousand is an accrued estimate of future
       workers' compensation benefits as of September 30, 2012. Historical benefits
       paid, inflation and interest rate assumptions, and other economic factors are
       applied to the actuarial model that calculates the liability estimate. The net intra-
       governmental accounts receivable is the amount due from Federal agencies for
       benefit payments paid to or on behalf of employees of the employing agency as
       of September 30, 2012. The net intra-governmental accounts receivable includes
       amounts which were billed to the employing agencies through June 30, 2012, but
       not paid as of September 30, 2012, including prior years, if applicable, plus the
       accrued receivable for benefit payments not yet billed for the period of July 1,
       2012, through September 30, 2012, less credits due from the public. Benefit
       expense consists of benefits paid for the period from October 1, 2011, to
       September 30, 2012, plus the net change in the actuarial liability and accrued
       benefits payable for the fiscal year.

                                                                                  (continued)
Prepared by KPMG LLP, for the                                                                   13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                         SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2012, and Benefit Expense
                     For the Year Ended September 30, 2012

       Benefit payments are intended to provide income and medical cost protection to
       covered Federal civilian employees who were injured on the job, employees who
       incurred a work-related occupational disease, and beneficiaries of employees
       whose deaths were attributable to job-related injury or occupational disease.

b.     Basis of Accounting

       The Schedule has been prepared on the accrual basis of accounting in
       conformity with U.S. generally accepted accounting principles.

       An estimate of claims that have been incurred but not reported are included in
       the actuarial liability. Therefore, the actuarial liability represents the estimated
       present value of future compensation and medical payments based upon
       approved claims, plus a component for incurred but not reported claims.

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The Special Benefit Fund was established under the authority of the Act to
       provide income and medical cost protection to covered Federal civilian
       employees who were injured on the job, employees who incurred a work-related
       occupational disease, and beneficiaries of employees whose deaths were
       attributable to a job-related injury or occupational disease. The fund is
       reimbursed by other Federal agencies for the FECA benefit payments made on
       behalf of their workers.

       The actuarial liability for future workers’ compensation reported on the Schedule
       includes the expected liability for death, disability, medical and miscellaneous
       costs for approved cases, as well as an estimate for those cases incurred but not
       reported. The liability is determined using a method that utilizes historical benefit
       payment patterns related to a specific incurred period to predict the ultimate
       payments related to that period. The actuarial model uses a Paid Loss
       Development Method by agency, by defined agency groups, and in total using
       inflation rate assumptions on both past and future indemnity and medical benefits
       to adjust past data and project forward.
                                                                             (continued)




14                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund



                                              SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2012, and Benefit Expense
                     For the Year Ended September 30, 2012

       As required under U.S. generally accepted accounting principles, these projected
       annual benefit payments have been discounted to present value. Consistent with
       past practice, DOL used the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting was 2.29 percent in year 1 and 3.14 percent
       in subsequent years.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA), and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                             FY            COLA          CPI-Med

                           2013            2.83%           3.65%
                           2014            2.03%           3.66%
                           2015            1.93%           3.72%
                           2016            2.00%           3.73%
                           2017            2.03%           3.81%
       The medical inflation rates represent an average of published quarterly rates
       covering the benefit payment fiscal year. The compensation factors are the
       blended FECA-COLA factor rates used by the model. COLA rates for FECA are
       updated March 1st of each calendar year from the Office of Personnel
       Management, and remain applicable until the end of February of the next year.
       As such, the FECA Liability Model overlaps two COLA rate periods; the FECA-
       COLA factor rates are a blend of the rates for the two periods.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable balance of $5,439,409 thousand
       represents the total of the amounts billed to Federal agencies through June 30,
       2012, that had not been paid as of September 30, 2012, of $4,603,018 thousand,
       including prior year’s amounts billed, if applicable; plus an accrued receivable
                                                                             (continued)
Prepared by KPMG LLP, for the                                                                  15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                             SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2012, and Benefit Expense
                     For the Year Ended September 30, 2012

       for benefit payments not yet billed for the period July 1, 2012, through September
       30, 2012, of $860,167 thousand, less applicable credits due from the Public of
       ($23,776) thousand.      The FECA Special Benefit Fund also receives an
       appropriation for special cases and older cases where employing agencies are
       not charged for benefit payments.

       Each Federal agency is required by the Act to include in its annual budget
       estimate a request for an appropriation in the amount equal to the agency cost.
       Agencies not receiving an appropriation are required to pay agency costs from
       funds directly under their control.        In addition, certain corporations and
       instrumentalities are assessed under the Act for a fair share of the costs of
       administering disability claims filed by their employees. The fair share costs are
       included in the calculation to determine the net intra-governmental accounts
       receivable.

4.     Benefit Expense
       Benefit expense for the year ended September 30, 2012, consisted of the
       following (dollars in thousands):

                 Benefits paid for compensation                 $ 2,050,880
                 Benefits paid for medical benefits                 914,073
                 Change in accrued benefits                          59,367
                 Change in actuarial liability                    2,917,560

                    Total benefit expense                       $ 5,941,880




16                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                               Special Report Relating to the
                                                     Federal Employees’ Compensation Act Special Benefit Fund



                      KPMG LLP
                      Suite 12000
                      1801 K Street, NW
                      Washington, DC 20006




                                                    SECTION 2A
                            Independent Accountants’ Report
                          on Applying Agreed-Upon Procedures

Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor
U.S. Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:


We have performed the procedures described in Section 2C, Agreed-Upon Procedures
and Results, which were agreed to by the U.S. Department of Labor, U.S. Government
Accountability Office, Office of Management and Budget, and the Agencies specified in
Section 2B of this Report, solely to assist you and such agencies in evaluating the
accompanying Schedules of Actuarial Liability by Agency and Net Intra-Governmental
Accounts Receivable by Agency as of September 30, 2012, and Benefit Expense by
Agency for the year ended September 30, 2012, of the U.S. Department of Labor
Federal Employees’ Compensation Act Special Benefit Fund (the Schedules). The U.S.
Department of Labor is responsible for the Schedules (Section 2B).
This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and the standards applicable to attestation engagements contained in
Government Auditing Standards, issued by the Comptroller General of the United
States.
The sufficiency of these procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. The procedures we performed and the
associated results are presented in Section 2C of this report.
We were not engaged to, and did not conduct an examination, the objective of which
would be the expression of an opinion on the Schedules or a part thereof. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

Prepared by KPMG LLP, for the                                                                             17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
and those Federal agencies with responsibility for the FECA program, and is not
intended to be and should not be used by anyone other than these specified parties.




October 26, 2012




18                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                        Schedule of Actuarial Liability by Agency
                               As of September 30, 2012

                                       (dollars in thousands)

                                                                                Actuarial
 AGENCY                                                                         Liability
 Agency for International Development                                             $ 23,582
 Environmental Protection Agency                                                    46,905
 General Services Administration                                                   132,802
 National Aeronautics and Space Administration                                      50,389
 National Science Foundation                                                         1,366
 Nuclear Regulatory Commission                                                       7,224
 Office of Personnel Management                                                     23,291
 U.S. Postal Service                                                           14,404,031
 Small Business Administration                                                      31,591
 Social Security Administration                                                    350,329
 Tennessee Valley Authority                                                        456,908
 U. S. Department of Agriculture                                                   944,353
 U. S. Department of the Air Force                                               1,383,963
 U. S. Department of the Army                                                    1,882,561
 U. S. Department of Commerce                                                      227,990
 U. S. Department of Defense – other                                               847,082
 U. S. Department of Education                                                      16,641
 U. S. Department of Energy                                                         93,349
 U. S. Department of Health and Human Services                                     273,372
 U. S. Department of Homeland Security                                           2,229,503
 U. S. Department of Housing and Urban Development                                  75,577
                                                                                     (continued)
Prepared by KPMG LLP, for the                                                                  19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                        SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                                 Schedule of Actuarial Liability by Agency
                                        As of September 30, 2012

                                                     (dollars in thousands)

                                                                                                            Actuarial
 AGENCY                                                                                                     Liability
 U. S. Department of the Interior                                                                            $ 802,555
 U. S. Department of Justice                                                                                 1,474,279
 U. S. Department of Labor                                                                                    231,995
 U. S. Department of the Navy                                                                                2,427,697
 U. S. Department of State                                                                                     78,941
 U. S. Department of Transportation                                                                          1,017,770
 U. S. Department of the Treasury                                                                             576,308
 U. S. Department of Veterans Affairs                                                                        2,014,108
 Other agencies1                                                                                             2,133,662
 Total - all agencies                                                                                     $ 34,260,124




1 Non-billable and other agencies for which OWCP has not individually calculated an actuarial liability

20                                                                                    Prepared by KPMG LLP, for the
                                                                U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 22-13-001-04-431
                                                                                               Special Report Relating to the
                                                                     Federal Employees’ Compensation Act Special Benefit Fund

                                                                     SECTION 2B
                                        U.S. Department of Labor
                              Office of Workers’ Compensation Programs
                      Federal Employees’ Compensation Act Special Benefit Fund
                                              Schedule of Net Intra-Governmental
                                               Accounts Receivable by Agency
                                                  As of September 30, 2012
                                                                 (dollars in thousands)

                                                                                                        Amounts                     Net Intra-
                                                                              Amounts                   Expended      Credits     Governmental
                                                                              Billed Not                 Not Yet     Due from       Accounts
AGENCY                                                                       Yet Paid (1)               Billed (2)   Public (3)   Receivable (4)
Agency for International Development                                                 $ 7,266                 $ 995       ($ 28)          $ 8,233
Environmental Protection Agency                                                         9,154                1,356         (37)           10,473
General Services Administration                                                       28,227                 3,828        (106)           31,949
National Aeronautics and Space
Administration                                                                        11,489                 1,391         (38)           12,842
National Science Foundation                                                                327                  41          (1)                367
Nuclear Regulatory Commission                                                           1,585                 218           (6)               1,797
Office of Personnel Management                                                          4,579                 630          (17)               5,192
United States Postal Service                                                     1,388,210                 385,488     (10,656)       1,763,042
Small Business Administration                                                           5,124                 703          (19)               5,808
Social Security Administration                                                        53,928                 7,572        (209)           61,291
Tennessee Valley Authority                                                            60,155                13,724        (379)           73,500
U. S. Department of Agriculture                                                     146,573                 21,318        (589)          167,302
U. S. Department of the Air Force                                                   268,826                 38,556      (1,066)          306,316
U. S. Department of the Army                                                        274,679                 37,631      (1,040)          311,270
U. S. Department of Commerce                                                          32,963                 5,351        (148)           38,166
U. S. Department of Defense – other                                                 190,777                 30,811        (852)          220,736
U. S. Department of Education                                                           3,679                 456          (13)               4,122
U. S. Department of Energy                                                            16,646                 2,766         (76)           19,336
                                                                                                                           (continued)
 1 Amount billed through June 30, 2012 (including prior years) but not yet paid as of September 30, 2012
 2 Amounts paid and accrued but not yet billed for the period July 1, 2012 through September 30, 2012
 3 Allocation of credits due from the public through September 30, 2012
 4 Total amount due to the fund for each agency as of September 30, 2012


 Prepared by KPMG LLP, for the                                                                                                           21
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-13-001-04-431
 Special Report Relating to the
 Federal Employees’ Compensation Act Special Benefit Fund

                                                                      SECTION 2B
                                        U.S. Department of Labor
                              Office of Workers’ Compensation Programs
                      Federal Employees’ Compensation Act Special Benefit Fund
                                              Schedule of Net Intra-Governmental
                                               Accounts Receivable by Agency
                                                  As of September 30, 2012

                                                                 (dollars in thousands)

                                                                                                        Amounts                       Net Intra-
                                                                              Amounts                   Expended        Credits     Governmental
                                                                             Billed Not                  Not Yet       Due from       Accounts
AGENCY                                                                       Yet Paid (1)                Billed (2)    Public (3)   Receivable (4)
U. S. Department of Health and Human
Services                                                                           $ 54,222                  $ 7,703      ($ 213)         $ 61,712
U. S. Department of Homeland Security                                               344,431                  51,720       (1,430)         394,721
U. S. Department of Housing and Urban
Development                                                                           16,254                  2,349          (65)          18,538
U. S. Department of the Interior                                                    121,373                  18,026         (498)         138,901
U. S. Department of Justice                                                         228,663                  32,899         (909)         260,653
U. S. Department of Labor                                                             46,700                  7,661         (351)          54,010
U. S. Department of the Navy                                                        476,214                  65,220       (1,667)         539,767
U. S. Department of State                                                             17,259                  2,716          (72)          19,903
U. S. Department of Transportation                                                  199,754                  27,085         (749)         226,090
U. S. Department of the Treasury                                                    109,506                  15,991         (442)         125,055
U. S. Department of Veterans Affairs                                                385,178                  57,728       (1,596)         441,310
Other agencies                                                                        99,277                 18,234         (504)         117,007
Total - all agencies                                                          $ 4,603,018                  $ 860,167   ($ 23,776)      $ 5,439,409


 1 Amount billed through June 30, 2012 (including prior years) but not yet paid as of September 30, 2012
 2 Amounts paid and accrued but not yet billed for the period July 1, 2012 through September 30, 2012
 3 Allocation of credits due from public through September 30, 2012
 4 Total amount due to the fund for each agency as of September 30, 2012




 22                                                                                                Prepared by KPMG LLP, for the
                                                                             U.S. Department of Labor—Office of Inspector General
                                                                                                Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund


                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                         Schedule of Benefit Expense by Agency
                               As of September 30, 2012
                                       (dollars in thousands)

                                                       Benefits Paid
                                                       and Change         Change in        Total
                                                        in Accrued        Actuarial       Benefit
AGENCY                                                    Benefits         Liability     Expense

Agency for International Development                            $ 3,602       $ 1,407        $ 5,009
Environmental Protection Agency                                   4,582        2,072          6,654
General Services Administration                                  13,934          607         14,541
National Aeronautics and Space Administration                     5,383         (689)         4,694
National Science Foundation                                        170            94            264
Nuclear Regulatory Commission                                      765           (21)           744
Office of Personnel Management                                    2,229        1,578          3,807
United States Postal Service                               1,306,584       2,185,357      3,491,941
Small Business Administration                                     2,404          961          3,365
Social Security Administration                                   26,479       16,246         42,725
Tennessee Valley Authority                                       48,206      (18,182)        30,024
U. S. Department of Agriculture                                  71,761       40,619        112,380
U. S. Department of the Air Force                               130,881       34,104        164,985
U. S. Department of the Army                                    171,863       53,589        225,452
U. S. Department of Commerce                                     18,456       (7,992)        10,464
U. S. Department of Defense – other                              68,429       53,074        121,503
U. S. Department of Education                                     1,811          411          2,222
U. S. Department of Energy                                        9,232         (716)         8,516
U. S. Department of Health and Human Services                    27,344        4,299         31,643
U.S. Department of Homeland Security                            177,197      174,278        351,475
                                                                                        (continued)
Prepared by KPMG LLP, for the                                                                    23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                        SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                                  Schedule of Benefit Expense by Agency
                                        As of September 30, 2012

                                                     (dollars in thousands)

                                                                        Benefits Paid
                                                                        and Change               Change in             Total
                                                                         in Accrued              Actuarial            Benefit
AGENCY                                                                     Benefits               Liability          Expense
U. S. Department of Housing and Urban
Development                                                                       $ 7,904                  ($ 298)       $ 7,606
U. S. Department of the Interior                                                   60,988                  55,344       116,332
U. S. Department of Justice                                                      115,152                  114,918       230,070
U. S. Department of Labor                                                          19,056                   5,839        24,895
U. S. Department of the Navy                                                     231,370                   33,640       265,010
U. S. Department of State                                                           8,575                   5,112        13,687
U. S. Department of Transportation                                                 97,442                  40,136       137,578
U. S. Department of the Treasury                                                   55,039                  17,920        72,959
U. S. Department of Veterans Affairs                                             198,101                  123,473       321,574
Other agencies (1)                                                               139,381                  (19,620)      119,761
Total - all agencies                                                        $ 3,024,320           $ 2,917,560        $ 5,941,880


1 Non-billable and other agencies for which OWCP has not individually calculated an actuarial liability




24                                                                                   Prepared by KPMG LLP, for the
                                                               U.S. Department of Labor—Office of Inspector General
                                                                                  Report Number: 22-13-001-04-431
                                                                            Special Report Relating to the
                                                  Federal Employees’ Compensation Act Special Benefit Fund

                                                  SECTION 2C

                                 Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                        Results of Procedures

    1) Calculated the actuarial liability as of             The actuarial liability as of September 30,
       September 30, 2012, using KPMG’s                     2012, calculated using KPMG’s Loss
       Loss Development actuarial model1.                   Development       actuarial     model    is
                                                            $33,810,760 thousand.


    2) Recalculated the actuarial liability as              No exceptions were noted as a result of
       of September 30, 2012, using DOL’s                   applying this procedure.
       Loss Development actuarial model2.


    3) Compared DOL’s actuarial liability as                DOL’s actuarial liability as of September
       of September 30, 2012, using DOL’s                   30, 2012, using DOL’s Loss Development
       Loss Development actuarial model to                  actuarial model is $449,364 thousand
       KPMG’s calculation of the actuarial                  (1.33%) greater than KPMG’s calculation
       liability as of September 30, 2012,                  of the actuarial liability as of September 30,
       using KPMG’s Loss Development                        2012, using KPMG’s Loss Development
       actuarial model and reported any                     actuarial model.
       difference.




1
  KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements its
methodology with the number of workers related to each agency in injury years 2007 through 2012.
2
  The DOL model uses a Paid Loss Development Method by agency, by defined agency groups, and in total using inflation
rate assumptions on both past and future indemnity and medical benefits to adjust past data and project forward.
Prepared by KPMG LLP, for the                                                                                       25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 4) Compared DOL’s actuarial liability as        No exceptions were noted as a result of
    of September 30, 2012, using DOL’s           applying this procedure.
    Loss Development actuarial model to
    KPMG’s calculation of the actuarial
    liability as of September 30, 2012,
    using DOL’s Loss Development
    actuarial model as calculated in
    procedure 2). For any identified
    differences, determined that DOL
    corrected the differences in the
    DOL’s final Loss Development
    actuarial model by agreeing (a)
    KPMG’s calculation of the actuarial
    liability as of September 30, 2012,
    using DOL’s final Loss Development
    actuarial model to (b) the actuarial
    liability reported in the special report
    and reported any difference.


 5) Compared the interest rate and               No exception was noted in our comparison
    inflation     (COLA,      CPI-Med)           of the interest rate assumption. KPMG’s
    assumptions used by the DOL Loss             model uses an implicit inflation rate
    Development actuarial model as of            included in the loss development patterns
    September 30, 2012, to the interest          selected and therefore does not use an
    rate and inflation (COLA, CPI-Med)           explicit inflation rate assumption.
    assumptions used by KPMG’s Loss
    Development actuarial model as of
    September 30, 2012 and reported
    any differences.




26                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 6) Compared the average interest rate             The average interest rate used by the DOL
    and average inflation rate (COLA and           Loss   Development       actuarial  model
    CPI-Med) assumptions used by the               decreased from 4.01% to 3.11% from
    DOL Loss Development actuarial                 September 30, 2011 to September 30,
                                                   2012.
    model as of September 30, 2011, to
    the average interest rate and average          The average COLA rate used by the DOL
    inflation rate (COLA and CPI-Med)              Loss    Development  actuarial   model
    assumptions used by the DOL Loss               increased from 2.01% to 2.05% from
    Development actuarial model as of              September 30, 2011 to September 30,
    September 30, 2012, and reported               2012.
    any differences.
                                                   The average CPI-med rate used by the
                                                   DOL Loss Development actuarial model
                                                   increased from 3.68% to 3.79% from
                                                   September 30, 2011 to September 30,
                                                   2012.




Prepared by KPMG LLP, for the                                                                  27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 7) Calculated the percentage change             The actuarial liability increased in the
    in the actuarial liability by agency         aggregate 9.31% from $31,342,564
    and in the aggregate by subtracting          thousand as of September 30, 2011, to
    the      actuarial liability    as   of      $34,260,124 thousand as of September 30,
    September 30, 2011, from the                 2012.
    September 30, 2012 balance, based
    on the DOL Loss Development                  The following agency had a change in
    actuarial model, and by dividing this        actuarial liability from September 30, 2011,
    difference by the actuarial liability        to September 30, 2012, of greater than
    balance as of September 30, 2011.            10%. For this agency, we noted the
    Identified agencies whose actuarial          following changes in benefit expense from
    liability changed by more than 10            September 30, 2011, to September 30,
    percent during fiscal year 2012, and         2012:
    for such agencies, calculated the
    percentage change in benefit
                                                         Percentage             Percentage
    payments by comparing the benefit
                                                          change in              change in
    payment        amounts      from    the       Agency
    Summary Chargeback Billing Report                      actuarial              benefit
    for the year ended September 30,                        liability            payments
    2011, to September 30, 2012 and               USPS      17.89%                 2.15%
    reported      any   agency       names
    identified and the percentage
    change in the benefit payment.




28                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 8) Compare the interest rate (used for           No exceptions were noted as a result of
    discounting the future liability to the       applying this procedure.
    present value) and inflation rates
    (COLA and CPI-Med) used by the
    DOL Loss Development actuarial
    model as of September 30, 2012, to
    the interest rate (used for discounting
    the future liability to the present
    value) and inflation rates (COLA and
    CPI-Med) published by OMB in the
    Fiscal Year 2012 Mid-Session
    Review and reported any differences.




Prepared by KPMG LLP, for the                                                                  29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 9) Compared the actuarial liability, by         No exceptions were noted as a result of
    agency, as of September 30, 2012,            applying this procedure.
    as reported in the Memorandum to
    the CFOs of Executive Departments
    issued by DOL’s Chief Financial
    Officer, to the liability calculated by
    the DOL Loss Development actuarial
    model as of September 30, 2012 and
    reported any differences.


 10) Compared both the benefit payments          No exceptions were noted as a result of
     by agency for the chargeback year           applying this procedure.
     ended June 30, 2012, and the
     aggregate benefit payments for the
     chargeback years ended June 30,
     2007-2012 used by the DOL Loss
     Development actuarial model, with
     the benefit payments by agency for
     the chargeback year ended June 30,
     2012, and the aggregate benefit
     payments for the chargeback years
     ended June 30, 2007-2012, as
     reported     in     the   Summary
     Chargeback Billing Report and
     reported any differences.




30                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 11) Compared the agency groupings                 No exceptions were found as a result of
     used in the DOL Loss Development              applying this procedure.
     actuarial model as of September 30,
     2012, with the agency groupings
     used in the DOL Loss Development
     actuarial model as of September 30,
     2011 and reported any difference.
 .




Prepared by KPMG LLP, for the                                                                  31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed                Results of Procedures

 12) Compared the estimated fiscal year          The benefit payments calculated by the
     2012 benefit payments calculated by         2011 DOL Loss Development actuarial
     the 2011 DOL Loss Development               model varied by more than 20% and $2
     actuarial model to the actual fiscal        million from the agency’s actual fiscal year
     year 2012 benefit payments from the         2012 benefit payments from the DOL
     DOL Summary Chargeback Billing              Summary Chargeback Billing Report for
     Report. Identified and reported the         the following agencies.
     agencies where the 2011 DOL Loss
     Development       actuarial   model                          Percent           Dollar
                                                   Agency
     estimated benefit payments varied by                        variance          Variance
     more than 20 percent and $2 million           GSA            21.18%          $2,538,831
     from the actual benefit payments              COM           (20.03%)        ($4,800,546)
     made during fiscal year 2012 from             DOS            42.82%          $2,585,786
     the DOL Summary Chargeback                    DOT            22.94%         $19,082,932
     Billing Report.                               DOL           (20.48%)        ($5,155,709)




32                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    13) Compared the net effective rates           The net effective rate (interest minus
        (interest minus inflation rates) for       inflation rate 1) for compensation of 1.06%
        compensation and medical used in           used in the DOL Loss Development
        the USPS, OPM, SSA, Energy                 actuarial model as of September 30, 2012,
        Employees’       Occupation    Illness     is greater than the net effective rate used
        Compensation Program, and the              for     compensation        in    the   USPS
        Black Lung Disability Trust Fund Loss      development actuarial models, less than
        Development actuarial models as of         the     net     effective    rate   used     for
        September 30, 2012, to the net             compensation in the Black Lung Disability
        effective rates for compensation and       Trust Fund, SSA, and OPM loss
        medical used by the DOL Loss               development models as of September 30,
        Development actuarial model as of          2012, as follows:
        September 30, 2012 and reported                - Postal Service (-0.80%) Energy
        any differences.                                   Employees’        Occupation    Illness
                                                           Compensation           Program      (no
                                                           compensation rates included in
                                                           models)
                                                       - OPM 2.0%
                                                       - Black Lung Disability Trust Fund
                                                           4.43%
                                                       - SSA 2.61%

                                                   The net effective rate (interest rate minus
                                                   inflation rate 2) for medical of (-0.68%) used
                                                   in the DOL Loss Development actuarial
                                                   model as of September 30, 2012, is
                                                   greater than the net effective rate for
                                                   medical used in the Postal Service (-6.8%)
                                                   loss development actuarial models as of
                                                   September 30, 2012.
                                                                                       (continued)




1
 COLA
2
 CPI-Med
Prepared by KPMG LLP, for the                                                                   33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed                  Results of Procedures

                                                  The net effective rate (interest rate minus
                                                  inflation rate 2) for medical of (-0.68%) used
                                                  in the DOL loss development actuarial
                                                  model as of September 30, 2012, is less
                                                  than the net effective rate for medical used
                                                  in the Energy Employees’ Occupation
                                                  Illness Compensation Program (1.138%)
                                                  and the Black Lung Disability Trust Fund
                                                  (1.68%) loss development actuarial
                                                  models as of September 30, 2012.

                                                  We did not complete this procedure for net
                                                  effective rates for medical used by OPM
                                                  and SSA because the rates were not
                                                  provided.




2
 CPI-Med
34                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


Agreed-Upon Procedures Performed                   Results of Procedures

14) Obtained a list of appropriate                 Complete confirmations were received
    representatives for all CFO Act                from all agencies that were sent a
    agencies (except for DOL) and the              confirmation request, with the exception of
    USPS from OWCP, and sent                       the U.S. Department of Commerce who
    confirmation letters to confirm the            provided an incomplete confirmation.
    gross accounts receivable balances
    due as of June 30, 2012 from the               The confirmed gross accounts receivable
    Liability    for   Current    Federal          balances as of June 30, 2012, agreed with
    Employees’       Compensation    Act           the gross accounts receivable balances as
    Benefits prepared by the DOL-OCFO              of June 30, 2012, posted on the DOL
    and posted on the DOL website.                 website, with the exception of Department
    Compared the confirmed accounts                of Homeland Security that reported a
    receivable balances as of June 30,             difference of $174.15.
    2012, to the amounts posted on the
    DOL website, and reported any
    differences.


15) Compared the net intra-governmental            The variances between the net intra-
   accounts receivable balances by                 governmental        accounts   receivable
   Federal agency as reported by the               balances by Federal agency as reported
   OCFO on the Liability for Current               by the OCFO on the Liability for Current
   Federal Employees’ Compensation                 Federal Employees’ Compensation Act
   Act Benefits report as of September             Benefits report as of September 30, 2011
   30, 2011, to the net intra-governmental         and the net intra-governmental accounts
   accounts receivable balances by                 receivable balances by Federal agency as
   Federal agency as reported by the               reported by the OCFO on the Liability for
   OCFO on the Liability for Current               Current          Federal     Employees’
   Federal Employees’ Compensation                 Compensation Act Benefits as of
   Act Benefits report as of September             September 30, 2012, are identified in
   30, 2012 and reported any differences.          Exhibit A of this report.



Prepared by KPMG LLP, for the                                                                  35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


16) Recalculated the September 30,                As a result of performing the procedure we
   2012,      net      intra-governmental         noted a difference in net intra-
   accounts receivable balances for               governmental        accounts     receivable
   each agency by adding the fiscal year          balances as of September 30, 2012 of
   2012 bills sent to Federal agencies to         $49,121,683. This difference is primarily a
   the prior-year ending balance from             result of an error in DOL’s calculation of
   prior year’s special report, less the          the 4th quarter FY 2012 billable accrued
   current year’s cash collections as             benefits of $49,321,000.
   reported by the OCFO on the SF-
   224s, plus the change in the 4th
   quarter unbilled accounts receivable
   from fiscal year 2011 to fiscal year
   2012 reported in the detailed general
   ledger, and less the fiscal year 2012
   change in net other credits due from
   the public reported in the detailed
   general     ledger.    Reported   any
   differences.




36                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                   Results of Procedures

17) Compared the recalculated September            As a result of applying this procedure, we
    30, 2012, net intra-governmental               identified the following agencies that had
    accounts receivable balances for each          differences above 1 percent:
    agency to the balance reported by the
    OCFO in the Liability for Current                                          Percent
    Federal Employees’ Compensation                        Agency Name        Variance
    Act Benefit report as of September 30,                     TVA             (1.07%)
    2012, and identified differences above                    USPS             (1.25%)
    1 percent.                                                 DOL            (10.76%)


18) Compared the Summary Chargeback                As a result of applying this procedure, we
    Billing Report for the period, July 1,         identified three Federal entities whose
    2011, through June 30, 2012, to the            billed amounts from the Summary
    bills sent to Federal entities dated July      Chargeback Billing Report for the period,
    31,     2012     and    reported     any       July 1, 2011 through June 30, 2012 were
    differences.                                   different compared to the bills sent to the
                                                   Federal entities dated July 31, 2012.
                                                   Specifically:

                                                       -   NASA billed amount reported on the
                                                           Summary       Chargeback    Billing
                                                           Report was $100 greater than the
                                                           amount billed.
                                                       -   DOI billed amount reported on the
                                                           Summary       Chargeback    Billing
                                                           Report was $42,357 less than the
                                                           amount billed.
                                                       -   USDA billed amount reported on the
                                                           Summary       Chargeback    Billing
                                                           Report was $39,999 less than the
                                                           amount billed.



Prepared by KPMG LLP, for the                                                                  37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


19) Compared the Allocation of Accrued            No exceptions were found as a result of
    Benefits as of September 30, 2012,            applying this procedure.
    recorded on the OCFO Liability for
    Current     Federal       Employees’
    Compensation Act Benefits report as
    of September 30, 2012, to the accrual
    calculation worksheet prepared by
    DOL, and reported any differences.


20) Compared the fiscal year 2012 4th             The FY 2012 4th quarter accounts
     quarter accounts receivable prepared         receivable prepared by the OCFO and
     by the OCFO and reported on the 4th          reported on the 4th quarter Liability for
     Quarter Liability for Current Federal        Current        Federal        Employees’
     Employees Compensation Act Benefit           Compensation Act Benefits report was less
     report to the fiscal year 2012 4th           than the fiscal 2012 4th quarter benefit
     quarter benefit payments reported on         payments reported on the Summary
     the Summary Chargeback Billing               Chargeback Billing Report by $21,501.
     Report and reported any differences.




38                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund
                                                                                     EXHIBIT A
                                                                       Results of Procedure 15

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                  Net Intra-Governmental
                    Accounts Receivable as reported by the OCFO on the
        Liability for Current Federal Employees’ Compensation Act Benefits as of
                                    September 30, 2012
                                      (dollars in thousands)

                          Agency                                2012          2011       Variance
Agency for International Development                             $ 8,233       $ 8,030       $ 203
Environmental Protection Agency                                  10,473        10,115          358
General Services Administration                                  31,949        31,734          215
National Aeronautics and Space Administration                    12,842        13,053        (211)
National Science Foundation                                         367           345           22
Nuclear Regulatory Commission                                     1,797         1,752           45
Office of Personnel Management                                    5,192         5,089          103
U.S. Postal Service                                            1,763,042    1,691,269      71,773
Small Business Administration                                     5,808         5,850         (42)
Social Security Administration                                   61,291        60,621          670
Tennessee Valley Authority                                       73,500        76,024      (2,524)
U.S. Department of Agriculture                                  167,133       168,246      (1,113)
U.S. Department of the Air Force                                306,316       304,628        1,688
U.S. Department of the Army                                     311,270       316,243      (4,973)
U.S. Department of Commerce                                      38,166        28,986        9,180
U.S. Department of Defense - other                              220,736       218,836        1,900
U.S. Department of Education                                      4,122         3,910          212
U.S. Department of Energy                                        19,336        19,408         (72)
U.S. Department of Health and Human Services                     61,712        59,440        2,272
U.S. Department of Homeland Security                            394,721       377,622      17,099


                                                                                      (continued)
Prepared by KPMG LLP, for the                                                                  39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund
                                                                                     EXHIBIT A
                                                                       Results of Procedure 15

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                  Net Intra-Governmental
                    Accounts Receivable as reported by the OCFO on the
        Liability for Current Federal Employees’ Compensation Act Benefits as of
                                    September 30, 2012
                                      (dollars in thousands)

                         Agency                                2012          2011        Variance
U.S. Department of Housing and Urban Development               $ 18,549      $ 18,349       $ 200
U.S. Department of Interior                                    138,901       136,824        2,077
U.S. Department of Justice                                     260,653       250,627       10,026
U.S. Department of Labor                                        59,041         54,892       4,149
U.S. Department of Navy                                        534,837       543,899       (9,062)
U.S. Department of State                                        19,803         18,271       1,532
U.S. Department of Transportation                              226,090       226,691         (601)
U.S. Department of the Treasury                                125,055       123,532        1,523
U.S. Department of Veterans Affairs                            441,310       425,197       16,113




40                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed                  Results of Procedures

21) Compared the fiscal year 2012 benefit         No exceptions were noted as a result of
    payments recorded in the Integrated           applying this procedure.
    Federal Employees Compensation
    System (iFECS) and Central Bill
    Process (CBP) databases as of
    March 31, 2012, and September 30,
    2012 to the fiscal year 2012 benefit
    payments reported in the U.S.
    Department of the Treasury’s SF-224
    as of March 31, 2012, and September
    30, 2012, and reported any
    differences.


22) Performed the following procedures            No exceptions were found as a result of
    over the reconciliation prepared by           applying this procedure.
    the Office of Workers’ Compensation
    Programs between the benefit
    payments reported in the Chargeback
    Billings Reports and the benefit
    payments reported in the iFECS and
    CBP databases for the fiscal year
    ending September 30, 2012:
   A) Compared the benefit payments in
       the Chargeback Billings Reports
       reported in the reconciliation to the
       actual     Chargeback         Billings
       Reports.
   B) Compared the benefit payments
       from iFECS and CBP databases
       reported in the reconciliation to the
       actual iFECS and CBP databases.
   C) Identified    and    reported       any
       differences above 1 percent.

Prepared by KPMG LLP, for the                                                                  41
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


23) For      all  agencies,    compared            The following agencies had increases over
    compensation and medical bill                  10% in compensation and medical bill
    payments by agency for the fiscal              payments for the year ended September
    year ending September 30, 2012,                30, 2012, compared to the year ended
    from the Summary Chargeback Billing            September 30, 2011:
    Report prepared by DOL, to the                           Agency        Variance
    compensation and medical bill                            NSF           22.17%
    payments by agency made for the                          COM           (25.52%)
    fiscal year ended September 30,
    2011, from the Summary Chargeback              Variances for the remaining agencies were
    Billing Report prepared by DOL, and            10% or less.
    identified any variances over 10
    percent.


24) For a selection of 132 compensation            No exceptions were noted as a result of
    payments        for   initially     eligible   applying this procedure.
    claimants,      compared        beneficiary
    name, beneficiary social security
    number, date of birth, benefit amount,
    payment date, and other unique
    identifiers from the applicable Forms
    CA-1 Federal Notice of Traumatic
    Injury and Claim for Continuation of
    Pay/Compensation, and CA-2 Notice
    of Occupational Disease and Claim
    for Compensation to the beneficiary
    name, beneficiary social security
    number, date of birth, benefit amount,
    payment date, and other unique
    identifiers    in   iFECS        database.
    Reported any differences.




42                                                                   Prepared by KPMG LLP, for the
                                               U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


25) For a selection of 132 compensation           One exception was noted where the
    payments for continuing eligibility and       claimant’s marital status reported on the
    file     maintenance,        compared         CA-1032 did not agree to the related
    beneficiary name, beneficiary social          compensation rate within the iFECS
    security number, date of birth, benefit       database.
    amount, payment date, and other
    unique identifiers from applicable
    Forms CA-7 Claim for Compensation,
    and CA-1032 Request for information
    on     Earnings,       Dual    Benefits,
    Dependents       and     Third    Party
    Settlements to the beneficiary name,
    beneficiary social security number,
    date of birth, benefit amount, payment
    date, and other unique identifiers in
    iFECS database.          Reported any
    differences.


26) For a selection of 78 medical                 No exceptions were noted as a result of
    payments, compared the vendor                 applying this procedure.
    name, date, and other unique
    identifiers from the medical bill and
    payment amount on the summary
    sheet of the Achieve system to the
    vendor name, payment amount, date,
    and other unique identifiers in CBP
    database. Reported any differences.


27) Calculated the change in the actuarial        The actuarial liability increased by
    liability from September 30, 2011, to         $2,917,560 thousand on the compilation
    September 30, 2012, as calculated by          reports prepared by DOL from September
    the DOL Loss Development actuarial            30, 2011, to September 30, 2012.
    model.

Prepared by KPMG LLP, for the                                                                  43
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


28)Calculated the fiscal year 2012 The calculated annual projected benefit
   projected benefit payments using the payments based on the March 31, 2012
   following two step process:             iFECS and CBP databases of $2,817,171
                                           thousand were less than the actual 12
   (A) Calculated the average benefit month total benefit payments as of
       payment amount per roll during the September 30, 2012, calculated from the
       period of October 1, 2011, to March Summary Chargeback Billing Reports of
       31, 2012, by dividing the total $2,892,252 thousand by $75,081 thousand
       medical and compensation benefit (2.60%).
       payments from the iFECS and CBP
       databases by the number of rolls in
       the period from October 1, 2011, to
       March 31, 2012 from the iFECS and
       CBP databases; and

     (B) Multiplied the average benefit
         payment       amount     per    roll
         determined in step 28 (a) above by
         the number of rolls scheduled for
         fiscal year 2012 in accordance with
         the FECA to obtain the annualized
         expected benefit payments.

     (C) Compared the calculated amount
         from step 28 (b) to the actual 12
         month total benefit payments as of
         September 30, 2012, calculated
         from the Summary Chargeback
         Billing Report and reported any
         difference.




44                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


29) Compared the fiscal year 2012 4th             The FY 2012 4th quarter benefit expense
    quarter benefit expense estimate              estimate calculated by the OCFO was less
    calculated by the OCFO as reported            than the actual fiscal year 2012 4th quarter
    on the Liability for Current Federal          benefit expense recorded in iFECS and
    Employees       Compensation      Act         CBP databases by approximately $21,501.
    Benefits report to the actual fiscal
    year 2012 4th quarter benefit expense
    by summing up the 4th quarter benefit
    expense recorded in iFECS and CBP
    databases     and     reported    any
    difference.




Prepared by KPMG LLP, for the                                                                  45
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




46                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-13-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by KPMG LLP, for the                                                                  47
U.S. Department of Labor—Office of Inspector General
Report Number: 22-13-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

                ACS                      Affiliated Computer Services
                AODF                     All Other Defense
                AUP                      Agreed Upon Procedures
                BLS                      Bureau of Labor Statistics
                CBP                      Central Bill Processing System
                CFO                      Chief Financial Officer
                COLA                     Cost of Living Allowance
                COM                      U.S. Department of Commerce
                CPI-Med                  Consumer Price Index for Medical
                DHS                      U.S. Department of Homeland Security
                DOD                      U.S. Department of Defense
                DOI                      U.S. Department of Interior
                DOJ                      U.S. Department of Justice
                DOL                      U.S. Department of Labor
                DOS                      U.S. Department of State
                DOT                      U.S. Department of Transportation
                EDU                      U.S. Department of Education
                EPA                      Environmental Protection Agency
                ESA                      Employment Standards Administration
                FECA                     Federal Employees' Compensation Act
                FY                       Fiscal Year
                HUD                      Department of Housing and Urban Development
                iFECS                    Integrated Federal Employees’ Compensation
                                         System
                LBP                      Liability to Benefits Paid
                NASA                     National Aeronautics and Space Administration
                NCS                      Corp. for National and Community Service
                NRC                      Nuclear Regulatory Commission
                NSF                      National Science Foundation
                OCFO                     Office of the Chief Financial Officer
                OMB                      Office of Management and Budget
                OPC                      Office of Peace Corps
                OPM                      Office of Personnel Management
                                                                               (continued)
48                                                                     Prepared by KPMG, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                     Report No: 22-13-001-04-431
                                                                   Special Reports Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

                 OWCP                     Office of Workers' Compensation Programs
                 SBA                      Small Business Administration
                 SFFAS                    Statement of Federal Financial Accounting
                                          Standards
                 SMI                      Smithsonian Institution
                 SSA                      Social Security Administration
                 USAID                    U.S. Agency for International Development
                 USDA                     Department of Agriculture
                 USPS                     U.S. Postal Service
                 TREAS                    U.S. Department of the Treasury
                 TVA                      Tennessee Valley Authority




Prepared by KPMG, for the                                                                      49
U.S. Department of Labor—Office of Inspector General
Report No: 22-13-001-04-431
